Credit Card Interest Rates and Fees
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

8.9% to 16.9% when you open your account, based on your
creditworthiness.

10.9% 18.0%

APR for Balance Transfers

to
creditworthiness.

when you open your account, based on your

10.9% to 18.0% when you open your account, based on your
APR for Cash Advances
Penalty APR and When it
Applies
How to Avoid Paying Interest
on Purchases
Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

creditworthiness.
Not Applicable
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
Not Applicable
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction
Penalty Fees
Late payment
Over-the-Credit Limit
Returned Payment
Other Fees
Card Replacement

None
None
None
1% of each transaction in US Dollars
Up to $25
None
Up to $25
$5

How We Will Calculate Your Balance: We use a method called "average daily balancing (including new
purchases)". See your account agreement for more details.
The information about the costs of the card described in this application/solicitation is accurate as of March
2017. This information may have changed after that date. To find out what may have changed, call us at 1866-734-7233 or write to us at PO Box 310136 Tampa, FL 33680-0136.

